HHS/OIG, Audit -"Review of Medicaid Management Information System Expenditures Claimed by Georgia for Fiscal
Year 2002,"(A-04-04-00002)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Management Information System Expenditures Claimed by Georgia for Fiscal Year 2002," (A-04-04-00002)
August 19, 2004
Complete
Text of Report is available in PDF format (487 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the Medicaid Management
Information Systems (MMIS) expenditures claimed at the 75 percent Federal financial participation rate by the Georgia Medicaid
agency during Federal fiscal year 2002 were adequately supported and allowable.  Overall, the MMIS costs claimed by
the State for Federal reimbursement at the 75 percent rate were adequately supported and allowable.  Of the costs
reviewed, we found only $12,232 (Federal share $9,174) that was not related to the MMIS services, and was considered unallowable
for Federal reimbursement.  The State concurred with our findings and recommendation to reimburse the Federal share.